                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A13080083                                                                        Page 1 of 1



         NSF OIG received an allegation of plagiarism in a proposal. 1 Specifically, it was alleged that the
         Subject2 obtained another University researcher's previously awarded NSF proposae from the
                                               4
         University's sponsored research office and copied its text into his Proposal.

         We reviewed the Proposal and identified extensive copied text; however, the copied text was
         material that described the University and the general goals of the project rather than the project
         itself.

         We referred the inquiry to the University. The University determined an investigation was
         warranted. We referred the investigation to the University. The investigation determined that
         although the Subject knowingly copied material from the previous proposal into his Proposal, he
         did so thinking he was authorized by both the previous PI and the University to use the text. The
         University did not make a finding of research misconduct, but did require the Subject provide
         certifications with each new grant proposal and take a responsible conduct of research course.

         We concurred with the University's assessment that given the circumstances a reasonable person
         would not have believed he/she was plagiarizing. We determined that the actions the University
         took adequately protect NSF's interests in this matter. Additionally, we sent the Subject a
         questionable research practice letter, reminding him of the need to appropriately cite all text used
         in his proposals.

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
